                                                 OFFICE OF INSPECTOR GENERAL
                                                                         MEMORANDUM




DATE:          October 28, 2004

TO:            Chairman

FROM:          Inspector General

SUBJECT: Physical Security Review of Gettysburg Site

The Office of Inspector General (OIG) has completed a review on physical security at the
Gettysburg site. A copy of our report, entitled “Physical Security Review of Gettysburg Site”
(Audit Report No. 03-AUD-07-10-1), is attached.

The objectives of this review were to obtain and verify the status of the physical security posture
at Gettysburg and to identify security upgrades to ensure required compliance with Federal
recommendations and other applicable regulations and standards. To accomplish the objectives
of this audit, we contracted with the consulting firm of Job Performance Systems, (JPS). Under
our supervision, JPS first reviewed the status of each condition as reported by FCC management.
 The JPS review team conducted a site visit to the FCC Headquarters, interviewed staff,
reviewed documentation, and performed other tests deemed necessary.

The scope of our review was limited to the Gettysburg facility and included the installed security
upgrades there. To determine the status of physical security at the facilities we interviewed
personnel, reviewed documentation, and performed other tests as appropriate.

There were many positive safety and security measures in place at the Gettysburg facility. It was
evident that the Gettysburg office placed a high value on the safety and security of its
employees, facilities and other assets. Most of the recommendations that had been listed in the
Gettysburg Site Interim Physical Security Review, audit report number 02-AUD-03-11, dated
October 28, 2003, had been resolved.

We did identify four (4) conditions for improvement for the Gettysburg facility. We recommend
that the findings we identified be corrected to strengthen the Commission’s physical security
program. Our recommendations will correct present problems and minimize the risk that future
security problems will occur. All open findings contained in the attached report will be tracked
for reporting purposes.

On September 28, 2004, we provided a draft to the Office of Managing Director (OMD) for
review and comments. In a response dated October 14, 2004, OMD concurred with the
recommendations of all four (4) findings. We have included a copy of the response from OMD
in its entirety as Appendix A.

Because of the sensitive nature of the information in this report, we have classified it as “Non-
Public – For Internal FCC Use Only” and have limited distribution. Those persons receiving this
report are requested not to photocopy or otherwise distribute this material.

If you have any questions, please contact Thomas Cline, Assistant Inspector General for Audits
at (202) 418-7890.




                                             H. Walker Feaster III
                                             Inspector General


Attachment

cc:    Chief of Staff
       Managing Director
       Chief, Wireless Telecommunications Bureau
       OMD-PERM
